CERTIFICATE OF COMPLIANCE
No. 21-____________

In the
Supreme Court of the United States
TODD W. HUTTON; TAMMY D. HUTTON, IN RESPECT
OF THE PROPERTY AT 10270 COUNTY ROAD 213,
FORNEY, TEXAS 75126,
Petitioners,
v.
BANK OF NEW YORK MELLON TRUST COMPANY,
N.A.,
Respondent.
I, the undersigned counsel of record for Petitioners
hereby certify, pursuant to Supreme Court Rule 33.1(h),
that I have caused to be served upon this court, 40 copies
of the Petition for a Writ of Certiorari containing 8237
words each excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d), along with One
(1) unbound copy of the Petition for Writ of Certiorari by
Fedex one day delivery service, and the substance being
resubmitted is substantially the same as previously
submitted to this court with typographical error
corrections.
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on October 10, 2021.
_/s/ Ugalahi Offoboche
Ugalahi Offoboche

